                                                           NATIONAL SCIENCE FOUNDATION
                                                            OFFICE OF INSPECTOR GENERAL
                                                              OFFICE OF INVESTIGATIONS

                                                    CLOSEOUT MEMORANDUM

 Case Number: 1-12100064                                                                                        Page 1 of 1



         Through a proactive review of Small Business Innovative Research (SBIR)/Small Business
         Technology Transfer Program (STTR) awards we identified a Phase I SBIR award 1 to a small
         business2 that potentially lacked adequate facilities to support their research. 3 Additionally, we
         discovered this same small business may have made false statements about the schedule for
         receiving outside investments in their proposal for Phase II funding. 4

         The investigation revealed that the facilities were in fact adequate for the research. With regard
         to the statements about the outside investments, we determined that NSF did not consider the
         timing variances to be material either to the award decision or to the performance of the award.

         This investigative case is closed with no further action necessary.




                                                                                                                was the home of

           One of the requirements is that the small business receive a certain amount of funding from third party investors.
         The small business stated in its Phase II proposal that it would receive part of the third party investment shortly after
         the award and the balance within the next year, when in fact the business did not receive any of the funding until
         eight months after the Phase II was awarded and shortly after our investigative inquiry.




NSF OIG Fonn 2 (11/02)
